Department of Homeland Security
   Ofﬁce of Inspector General

    Resource and Security Issues Hinder DHS' 

      Implementation of Homeland Security 

            Presidential Directive 12 





OIG-10-40                              January 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      January 25, 2010

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of DHS’ program and security
management of its implementation of Homeland Security Presidential Directive 12
requirements. It is based on interviews with selected employees, contractor personnel,
and management officials, including the Chief Security Officer; direct observations;
system security vulnerability assessments; and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Audit ...................................................................................................................4 


     Actions Taken to Implement DHS’ HSPD-12 Program ................................................4 


     Inadequate Program Management and Resources Have Led to Delays in DHS’ 

     Implementation of HSPD-12 .........................................................................................6 

     Recommendations........................................................................................................11 

     Management Comments and OIG Analysis ................................................................12 


     System, Account Management, and Physical Security Controls Are Not Effective ...15 

     Recommendations........................................................................................................24 

     Management Comments and OIG Analysis ................................................................25 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................30 

     Appendix B:           Management Comments to the Draft Report .......................................32 

     Appendix C:           DHS PIV Card and Issuance Roles......................................................39 

     Appendix D:           Current IDMS Architecture .................................................................40 

     Appendix E:           DHS PIV Card Issuance Process .........................................................41 

     Appendix F:           Major Contributors to this Report........................................................42 

     Appendix G:           Report Distribution ..............................................................................43 


Abbreviations
     ACO                 Access Control Office 

     ATO                 Authority to Operate           

     C&A                 certification and accreditation     

     CA                  Certificate Authority            

     CBP                 Customs and Border Protection 

     DHS                 Department of Homeland Security 

     EIWS                enrollment and issuance workstations

     FEMA                Federal Emergency Management Agency 

     FIPS                Federal Information Processing Standards 

     FISMA               Federal Information Security Management Act 

     FLETC               Federal Law Enforcement Training Center 

     FTE                 full-time equivalent          

     FY                  Fiscal Year           

     GFE                 government furnished equipment 

     GSA                 General Services Administration 

     HSPD-12             Homeland Security Presidential Directive 12 

ICE       Immigration and Customs Enforcement
ICISS     Identification and Credential Issuing Station and System
IDMS      Identity Management System
ISSO      Information Systems Security Officer
IT        information technology
ITSO      Information Technology Services Office
NAC       Nebraska Avenue Complex
NIST SP   National Institute of Standards and Technology Special Publication
NPPD      National Protection and Programs Directorate
OCIO      Office of Chief Information Officer
OCSO      Office of the Chief Security Officer
OMB       Office of Management and Budget
PACS      Physical Access Control System
PII       personally identifiable information
PIN       personal identification number
PIV       Personal Identity Verification
PKI       Public Key Interface
PMO       Program Management Office
SBCG      Secure Baseline Configuration Guide
SELinux   Security Enhanced Linux
SSO       Special Security Officer
SU        super user
TAF       Trusted Agent FISMA
TS/SCI    Top Secret/Sensitive Compartmented Information
TSA       Transportation Security Administration
USCIS     United States Citizenship and Immigration Services
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
           Homeland Security Presidential Directive 12 (HSPD-12), Policy for a
           Common Identification Standard for Federal Employees and Contractors,
           requires the development and agency implementation of a mandatory,
           government-wide standard for secure and reliable forms of identification
           for federal employees and contractors. All federal departments and
           agencies are to implement an HSPD-12 program to meet the standard
           established by the policy, which aims to enhance security, increase
           government efficiency, reduce identity fraud, and protect personal privacy.

           An accurate determination of identity is essential to make sound decisions
           when granting an individual access to security-sensitive government
           buildings and other facilities, computer systems, or data. Successful
           implementation of the directive’s requirements will strengthen access
           controls, increase the security of federal facilities and information
           systems, and reduce the potential for terrorist attacks.

           Although DHS has established an identification credentialing and issuance
           process, the department has not made the implementation of an effective
           HSPD-12 program a priority. The original completion date for the
           issuance and use of identity credentials by all federal employees and
           contractors was October 27, 2008. As of September 22, 2009, only
           15,567, of the approximately 250,000 department employees and
           contractors, had been issued identity credentials.

           Due to weak program management, including insufficient funding and
           resources, and a change in its implementation strategy, the department is
           well behind the deadline for fully implementing an effective HSPD-12
           program. In addition, the department faces significant challenges in
           meeting HSPD-12 directive requirements for logical access to its
           information systems. Furthermore, system security and account
           management controls are not effective in protecting personally identifiable
           information collected and stored from unauthorized access. Existing
           security issues must be addressed to allow for the deployment of a robust,
           efficient, and secure interoperable identity card and issuance system
           department-wide.

           We are making 15 recommendations to DHS’ Chief Security Officer, in
           conjunction with the Chief Information Officer. DHS management

            Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                          Page 1

        concurred with the recommendations and has already begun to take the
        actions to implement them. The resolved recommendations will remain
        open until DHS provides documentation to support that the
        implementation of all planned corrective actions is complete. DHS’
        response is summarized and evaluated in the body of this report and
        included, in its entirety, as Appendix B

Background
        Traditionally, a wide range of mechanisms has been employed to
        authenticate an individual’s identity, using various classes of credentials
        for both physical access to buildings and authorization to access
        computers and data. HSPD-12 established the policy for a common
        standard for identification credentials issued by government departments
        and agencies to its employees and contractors. These credentials are to be
        used for gaining physical access to federally controlled facilities and
        logical access to federally controlled information systems.

        The Department of Commerce was tasked with developing the standard
        that specifies the architecture and technical requirements for a common
        identification standard for federal employees and contractors. The
        government-wide standard for secure and reliable forms of identification
        credentials is defined in the Department of Commerce’ Federal
        Information Processing Standards (FIPS) publication 201-1, Personal
        Identity Verification (PIV) of Federal Employees and Contractors. Figure
        1 illustrates the minimum mandatory components and roles required to
        support PIV control objectives and requirements according to FIPS 201-1.

        To support the implementation of HSPD-12, the Office of Management
        and Budget (OMB) issued Memorandum 05-24 (M-05-24),
        Implementation of Homeland Security Presidential Directive (HSPD) 12 -
        Policy for a Common Identification Standard for Federal Employees and
        Contractors. This memorandum outlined the instructions and guidance, as
        well as deadlines, for federal departments and agencies to follow when
        implementing HSPD-12. According to the OMB memorandum, agencies
        were required to complete the background investigations on all current
        employees and contractors and to issue identity credentials according to
        the following schedule:

        •	 October 27, 2007 - Agencies were to complete background checks and
           issue credentials to all employees and contractors with 15 or fewer
           years of service.
        •	 October 27, 2008 - Agencies were to complete background checks and
           issue credentials to all employees with more than 15 years of service.



         Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                       Page 2

                Additionally, departments and agencies were to identify federally
                controlled facilities, information systems, and other federal applications
                that were important for security.

                Figure 1: PIV Identity Verification and Issuance




                In October 2007, we reported that the department was experiencing delays
                in developing a technical solution capable of issuing PIV cards to its
                employees and contractors.1 Subsequently, OMB granted DHS an
                extension, until December 2010, to issue PIV cards to its workforce.

                We also reported that DHS had neither assessed the total cost to
                implement HSPD-12 department-wide nor identified the extent to which
                PIV cards would be used or required to access facilities and information
                systems. In addition, component implementation guidance needed to be
                updated, PIV card issuance statistics were not being posted to DHS’ public
                website, and the department had not yet identified a technical solution to
                issue PIV cards to its employees and contractors.

                Our recommendations targeted the identification of resources to carry out
                DHS’ implementation plan, development of a department-wide cost

1
 Progress Has Been Made But More Work Remains in Meeting Homeland Security Presidential
Directive 12 Requirements (OIG-08-01), October 2007.
                 Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                               Page 3

                 estimate, a decision on facility access points and information systems
                 requiring the use of PIV cards, revisions to component guidance,
                 certification and accreditation of the information systems used to
                 implement HSPD-12 and FIPS 201-1, and the posting of PIV card
                 statistics on the department’s website. Our current audit was conducted to
                 follow up on our prior audit recommendations and assess DHS’ progress
                 in meeting HSPD-12 implementation requirements.

Results of Audit
        Actions Taken to Implement DHS’ HSPD-12 Program
                 DHS’ Office of Security is responsible for the department’s HSPD-12
                 program, with technical support from the Office of the Chief Information
                 Officer (OCIO). DHS is implementing HSPD-12 by issuing biometric
                 smartcards, known as DHS PIV cards. DHS PIV cards will be issued to
                 all DHS employees and contractors, an estimated 250,000 individuals.2
                 DHS began issuing these cards to Headquarters employees and contractors
                 in June 2008.3 DHS uses two systems to support its PIV card issuance
                 process and use. These systems are the Identity Management System
                 (IDMS) and the Headquarters Physical Access Control System (PACS).4
                 To support HSPD-12 and FIPS 201-1 requirements, the department has:

                 •	   Worked with stakeholders in the DHS components, through an
                      HSPD-12 Council and working groups, to develop a coordinated
                      departmental approach to implementation.

                 •	   Awarded a blanket purchase agreement for the component purchase of
                      DHS PIV related technology, such as card enrollment and issuance
                      workstations (EIWS).

                 •	   Conducted a pilot to test the use of PIV cards for logical access within
                      the National Protection and Programs Directorate (NPPD). NPPD
                      employees and contractors are continuing to use PIV cards to access
                      DHS’ information systems.




2
  The United States Coast Guard is exempt and will continue to use the Department of Defense Common
Access Card, except for those personnel who routinely access DHS-controlled facilities that have migrated
to DHS PIV cards.
3
  DHS Headquarters consists of the Offices of the Chief Financial Officer, Chief Privacy Officer, Domestic
Nuclear Detection, Federal Law Enforcement Training Center (FLETC), General Counsel, Inspector
General, Intelligence and Analysis, and Policy.
4
  An electronic interface to connect IDMS and Headquarters PACS has not been developed or installed.
                   Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                                  Page 4

                 •	   Achieved PIV Card Issuer accreditation for Headquarters from the
                      General Services Administration (GSA). Through this accreditation,
                      GSA approved the configuration of DHS’ PIV card.5

                 •	   Established the Identity Management Division within the Office of
                      Security in June 2009. The Program Management Office (PMO),
                      introduced in March 2006, became part of the Identity Management
                      Division.

                 •	   Deployed card EIWS at Customs and Border Protection (CBP),
                      Federal Emergency Management Agency (FEMA), FLETC,
                      Headquarters, Immigration and Customs Enforcement (ICE),
                      Transportation Security Administration (TSA), and United States
                      Customs and Immigration (USCIS) during Fiscal Year (FY) 2009.
                      The number of cards produced and issued to component personnel, as
                      of September 22, 2009, is shown in Figure 2.

                 Figure 2: DHS PIV Cards Issued by Component

                            Component                      Cards Issued
                        CBP                                       9
                        FEMA                                   3,113
                        FLETC                                    35
                        DHS Headquarters                      11,875
                        ICE                                       8
                        TSA                                       5
                        USCIS                                   522
                        Total                                15,5676

                 Despite the progress made, DHS still faces further delays and significant
                 program and system management challenges in implementing an effective
                 HSPD-12 program. For example, according to program management,
                 DHS will not be able to meet the December 2010 extension OMB granted
                 to complete issuing PIV cards to its employees and contractors. DHS’
                 milestone for completion of PIV card issuance to employees and
                 contractors is now September 30, 2011, a date that is almost three years
                 after the mandated October 27, 2008, deadline established by OMB.



5
  Based on OMB M-07-06, Validating and Monitoring Agency Issuance of Personal Identity Verification
Credentials, agencies were required to submit the configuration of their standard credential to GSA for
testing and approval.
6
  Not all of the cards issued have been “activated” in IDMS and PACS. Of the 15,567 cards issued, 12,892
had been activated. The numbers include cards and cards that have been revoked and test cards.
                  Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                                 Page 5

     DHS does not have a plan to successfully implement a robust program to
     increase physical and logical access security within the department. The
     absence of an HSPD-12 program implementation plan, department-wide
     deployment strategy, and sufficient resources are hindering progress.
     Components currently have their own individual physical access control
     systems, which will need to be consolidated into DHS’ Headquarters
     PACS some time in the future. More work remains to ensure that existing
     infrastructures are consolidated to support DHS’ HSPD-12 program. In
     addition, an interface between the card issuance system, IDMS, and PACS
     is needed. Necessary facility upgrades need to be completed at component
     locations to ensure PIV cards are interoperable with DHS’ physical and
     logical access control systems.

Inadequate Program Management and Resources Have Led to
Delays in DHS’ Implementation of HSPD-12
     Implementation of a fully functional identity management system is a
     significant effort requiring the coordination of various staff and resources.
     Implementing a fully functional smartcard infrastructure requires more
     than printing and issuing cards. Buy-in and active participation of
     leadership is essential to the success of a credentialing program.

     A program management approach is to be established for all projects
     commensurate with the size, complexity, and project requirements.
     Sponsors of such programs should have sufficient authority to own the
     execution of a project within the overall strategic program. Smartcard
     implementation is a complex program management task. According to the
     Federal Identity Management Handbook, HSPD-12 requires program
     managers to procure and implement smartcard technology. Each agency
     is expected to allocate funding and resources to support the
     implementation of HSPD-12.

     In June 2009, the department changed its strategy on how DHS PIV cards
     would be issued, from a component-by-component based implementation
     to a centrally managed regional strategy. Since this change in the
     department’s implementation strategy, the PMO has not received adequate
     staffing or funding, developed a viable implementation and regional
     deployment plan, estimated the department-wide cost for implementing
     HSPD-12, or identified performance measures to properly track
     implementation progress. As a result, the department’s full
     implementation of HSPD-12 has been effectively delayed until
     September 30, 2011.




      Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                    Page 6

       DHS’ PMO Was Not Adequately Staffed or Funded

       DHS’ PMO is responsible for implementing HSPD-12.
       Department leadership, however, did not provide adequate support,
       funding, or resources for the PMO to effectively manage and
       oversee DHS’ implementation its HSPD-12 program. As a result,
       DHS is well behind schedule.

       The PMO, established in March 2006, was initially staffed on an ad-
       hoc basis, and Security Office funding was often diverted to higher
       priority programs, such as security background investigations. Prior
       to October 2009, the PMO was not authorized any full-time
       equivalent (FTE) employees or funding for contractor staff. In its
       FY 2010 budget request, the Office of Security asked the
       department for funding for PMO staffing, but no FTE employees
       were authorized. The Office of Security authorized six FTE
       employees for the PMO in FY 2010. Five employees are currently
       onboard, and the PMO is in the process of converting one contactor
       employee to an FTE.

       According to DHS management officials, the department-wide
       implementation of HSPD-12 has not been a priority. Therefore,
       DHS has not yet implemented a robust, efficient, and interoperable
       identity credentialing program to increase both physical and logical
       information security.

       A Regional Program Implementation and Deployment Plan
       Has Not Been Developed

       The PMO has not developed an implementation and deployment
       plan based on the centrally managed regional implementation
       strategy that DHS has employed to address HSPD-12
       requirements. Though the PMO has begun to develop a new
       program implementation plan, it is unknown when the plan will be
       ready. Also, as we reported in 2007, DHS has not yet identified to
       what extent PIV cards will be used or required to access specific
       facilities or information systems throughout the department.

       DHS’ HSPD-12 program implementation plan should define the
       scope of work and the roles and responsibilities of key personnel.
       The plan should also identify facilities and information systems
       that will be affected and outline the card functions DHS will
       enable to authorize access to resources. In addition, the plan
       should include milestones for critical tasks associated with the
       issuance of PIV cards, such as the deployment of the new regional
       enrollment centers Furthermore, the plan should specify locations,

Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                              Page 7

       estimate the numbers of staff to be processed through each facility,
       and identify when each location will receive card EIWS.

       OMB M-05-24 requires agencies to develop an implementation
       plan, which must be submitted to OMB for review and approval.
       As we reported in October 2007, the Office of Security originally
       submitted an implementation plan to OMB. The implementation
       plan developed was based on component-by-component based
       milestones for the department’s compliance with HSPD-12
       requirements to meet the December 2010 deadline approved by
       OMB. However, the original plan became obsolete when the
       department changed its HSPD-12 program implementation strategy
       in June 2009. Further, without an implementation or deployment
       plan, the PMO determined that the department will be unable to
       meet OMB’s extended December 2010 date. The new deadline
       date established by the PMO is September 30, 2011, but OMB has
       not approved this date.

       DHS Has Not Developed a Department-Wide Cost Estimate

       In our October 2007 report, we recommended that DHS develop a
       department-wide cost estimate to ensure that sufficient resources
       were allotted to implement HSPD-12. Although DHS concurred
       with this recommendation, it has not developed a department-wide
       cost estimate that includes all costs related to its HSPD-12
       implementation.

       Federal agencies and components were to fund HSPD-12
       implementation from existing resources. Because component level
       resources were limited, DHS changed its strategy, in part, to better
       oversee and manage the components’ implementation of HSPD-12.
       Additionally, the change to a regional HSPD-12 implementation
       strategy was expected to cost the department less to implement
       than the original plan.

       The ability to meet the milestones for card issuance depends on the
       availability of funding and resources to meet the initial anticipated
       needs. Existing funding and resource issues related to the
       department’s implementation of HSPD-12 have contributed to
       significant delays in meeting milestone dates for card issuance and
       full implementation of its HSPD-12 program.

       The PMO established the following milestones for initial card
       issuance for the estimated 250,000 DHS employees and
       contractors:


Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                              Page 8

                          •	 FY 2009 – Complete issuance to 10,000 federal employees and
                             contractors.7
                          •	 FY 2010 – Complete issuance to 135,000 federal employees
                             and contractors.
                          •	 FY 2011 – Complete issuance to 105,000 federal employees
                             and contractors.

                          The current $25 million budget for FY 2010 is based on the costs
                          associated with issuing 135,000 PIV cards. The costs are broken
                          down in detail as follows:

                          •	 Initial Issuance and Support: Card issuance workstation
                             leasing, installation, and maintenance (for 192 workstations),
                             surge labor support (consisting of 60 contractors), PMO
                             support, training, software leasing and license fees (for up to
                             200 locations), and development of three interfaces to connect
                             vetted databases.
                          •	 Issuance Consumables: PIV card stock, badge holders,
                             lanyards, and printer consumables.
                          •	 Annual Enterprise Back-End System Costs Required to
                             Support Technical Solution: Maintenance of IDMS and
                             interface to Certificate Authority (CA), IDMS license fee and
                             server hosting, Treasury CA and maintenance fee, Public Key
                             Interface (PKI) support (consisting of four contractors), PKI
                             certificates and maintenance (for 250,000 identities), Virtual
                             Private Network support, maintenance of Headquarters and
                             component interfaces (currently five interfaces), and logical
                             access enterprise middleware.

                          The same cost breakdown based on the initial issuance of the
                          remaining 105,000 cards was used in developing the FY 2011
                          budget estimate.

                          The PMO determined that it cost $177 per PIV card issued in
                          FY 2009.8 Working under the assumption that the cost per card
                          issued would remain the same, the projected cost for card issuance
                          in FY 2010 would be approximately $24 million ($177 × 135,000
                          cards). With a budget of $25 million, little funding would remain
                          to cover other costs not considered part of card issuance in the
                          FY 2010 budget. For example, the cost of establishing PIV card
                          enrollment centers at DHS’ component locations are not covered in
                          the card costs. Enrollment centers will be needed in FY 2010 to
                          issue PIV cards. The FY 2010 budget also does not cover the costs
7
 DHS surpassed this goal; a total of 15,652 cards were issued in FY 2009. 

8
 The cost per card is based on the issuance of 15,652 PIV cards in FY 2009 (October 1, 2008, through 

September 30, 2009).

                   Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                                 Page 9

       associated with the installation of card readers at component
       facilities, development of an interface to connect IDMS and
       Headquarters PACS, consolidation of components’ physical access
       systems into PACS, or the maintenance of PACS.

       Logical access costs are not covered in the $22 million FY 2011
       budget estimate even though logical access capability is expected
       to be implemented in the first quarter of FY 2011. Additionally,
       the cost of work to ensure that existing component infrastructures
       are interoperable with Headquarters PACS is not included in the
       FY 2011 budget estimate.

       DHS’ department-wide cost estimates for FYs 2010 and 2011 are
       based on the costs associated with PIV card issuance, not the
       department-wide implementation of HSPD-12. Costs for
       infrastructure and system upgrades associated with interoperability
       issues have not been considered, and these issues may take many
       years to address.

       HSPD-12 Performance Measures Have Not Been Established

       Quantifiable performance measures have not been developed to
       provide an overview of how DHS will meet its anticipated
       September 30, 2011, HSPD-12 implementation deadline. Since
       DHS’ HSPD-12 PMO has not yet revised its implementation or
       deployment plan milestones, it is unable to determine the overall
       progress the department has made in implementing HSPD-12.

       Performance measurement indicates what a program is
       accomplishing and whether results are being achieved. In addition,
       it helps management by providing information on how resources
       and efforts should be allocated to ensure effectiveness. OMB
       requires each agency to prepare an annual performance plan
       covering each program activity included in the budget of the
       agency. A performance plan should include the following:

       •	 Goals that define the level of performance to be achieved by a
          program activity.
       •	 Goals that are objective, quantifiable, and measurable.
       •	 Performance indicators to measure or assess the relevant
          output, service levels, and outcomes of each program activity.
       •	 A basis for comparing actual program results with established
          performance goals.

       The PMO has not completed its plan for department-wide
       implementation of HSPD-12. The implementation plan should

Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 10

       include milestones and goals that are quantifiable and measurable.
       In addition, though the PMO has requested that components submit
       a status of their progress regarding facility upgrades, such as
       installing and replacing card readers, not all of the components are
       submitting these reports. The PMO does not have the authority to
       make the components submit implementation status reports;
       therefore, the PMO is unable to measure the components’ overall
       status and readiness for HSPD-12 compliance.

       Conclusion

       DHS’ ability to meet card issuance and regional deployment
       milestones depends on the availability of staffing and resources.
       Insufficient funding and resources have, in part, caused the
       department’s current delays in implementing an effective
       HSPD-12 program within OMB’s timelines. The PMO, brought
       under the newly established Identity Management Division in
       June 2009, could not adequately manage the timely
       implementation of HSPD-12 because it was not properly funded or
       staffed.

       Poor planning and program management, a change in the
       department’s implementation strategy, and insufficient funding and
       resources have led to significant delays in issuing PIV cards timely
       and meeting OMB’s deadline for implementing an effective
       HSPD-12 program. The delayed issuance of DHS PIV cards has
       limited the department’s ability to enhance and strengthen its
       overall physical access security process based on credentialing
       technology. In addition, the delays have affected other parts of the
       department’s compliance with HSPD-12 and FIPS 201-1,
       including logical access, and will affect DHS employee and
       contractor access to other federal buildings. Once implemented, a
       secure and interoperable HSPD-12 compliant card will provide the
       attributes of security, authentication, identity verification, trust,
       and privacy to a commonly accepted identification card for federal
       employees and contractors.

Recommendations
       We recommend that DHS’ Chief Security Officer, in conjunction
       with the Chief Information Officer:

       Recommendation #1: Ensure that the PMO has the staffing and
       funding necessary to effectively coordinate and oversee the
       department-wide implementation of HSPD-12.


Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 11

       Recommendation #2: Develop a regional implementation plan
       that includes detailed information about how the PMO will
       centrally manage the department-wide deployment of its HSPD-12
       program. The plan should identify milestone dates and define
       program measures to track HSPD-12 implementation progress.

       Recommendation #3: Discuss and coordinate with OMB on the
       department’s updated milestones and implementation of HSPD-12
       requirements.

       Recommendation #4: Estimate the department-wide cost to
       comply with HSPD-12 and FIPS 201-1 requirements and prioritize
       the department’s costs to ensure that physical and logical access
       interoperability requirements will be met. The estimate should
       cover the funding and other resources necessary to support
       HSPD-12 over a period of no less than five years.

       Recommendation #5: Identify the facility access points and
       information systems that will require the use of PIV cards.

Management Comments and OIG Analysis
       DHS management concurred with recommendation 1. DHS noted,
       however, that the implementation of HSPD-12 has always been a
       priority for department leadership and the Management
       Directorate. To address the unfunded HSPD-12 mandate,
       department leadership took the initiative to realign existing
       resources (fiscal and personnel) from within the Office of the Chief
       Security Officer (OCSO) to provide funding and contractor
       support. Furthermore, OCSO is exploring the possibilities of
       detailing experienced and qualified component employees and an
       internal reorganization to obtain the necessary staffing. OCSO and
       the PMO will also work with the DHS Chief Financial Officer to
       identify a sustainable funding stream.

       OIG Analysis

       We do not agree with DHS’ assertion that HSPD-12 has been a
       priority. In meetings held with management, DHS officials stated
       that HSPD-12, an unfunded mandate, was not previously a
       departmental priority. Therefore, funding was often diverted to
       higher priority programs, such as security background
       investigations. We do agree that current management, including
       the Secretary and Deputy Secretary, support the centrally managed
       approach and want HSPD-12 to be a priority because it helps


Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 12

       create the “one DHS” strategy emphasized by unifying
       components.

       The steps that DHS is taking, and plans to take, begin to satisfy
       this recommendation. We consider this recommendation resolved;
       it will remain open until DHS provides documentation to support
       that all planned corrective actions are completed.

       DHS management concurred with recommendation 2. OCSO has
       developed a regional implementation plan using a
       centrally-purchased approach that includes oversight of the
       components’ implementation of HSPD-12. The plan, which will
       be finalized by January 30, 2010, will incorporate component input
       based on their anticipated certification and accreditation (C&A)
       schedules, as well as milestone dates and program implementation
       tracking measurements. Component completion of their respective
       C&A (i.e., Authority to Operate [ATO]) activities is a key
       dependency for DHS PIV card issuance. The OCSO centrally-
       purchased approach will use a component task force
       implementation model for card issuance. The component task
       force implementation model will rely on component staffing and
       active participation and management to carry-out their respective
       PIV issuance responsibilities. PIV card issuance is expected to
       begin in New York City; Dallas, TX; and Los Angeles, CA in the
       second quarter of FY 2010.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin
       to satisfy this recommendation. We consider this recommendation
       resolved; it will remain open until DHS provides documentation to
       support that all planned corrective actions are completed.

       DHS management concurred with recommendation 3. Personnel
       from OCSO and OCIO met with OMB officials on
       November 18, 2009, to provide an update on the status of DHS
       HSPD-12 implementation. OMB was advised that the anticipated
       completion date is March 2012. This revised date is based on card
       issuance completion schedules, enterprise infrastructure progress,
       and the alignment of DHS efforts with the Federal Identity,
       Credential, and Access Management Roadmap and
       Implementation Guidance released on November 10, 2009.




Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 13

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin
       to satisfy this recommendation. We consider this recommendation
       resolved; it will remain open until DHS provides documentation to
       support that all planned corrective actions are completed.

       DHS management concurred with recommendation 4. OCSO has
       developed a department-wide cost estimate for PIV deployment in
       FY 2010 that totals approximately $24 million. Efforts to quantify
       the totality of DHS HSPD-12 physical and logical access
       requirements are continuing. Component cost estimates are being
       consolidated to create a department-wide physical security cost
       estimate. This effort is scheduled to be completed in April 2010.
       Concurrent with this effort, the OCIO will develop a
       comprehensive cost estimate to implement logical access to DHS
       unclassified networks using HSPD-12 compliant PIV cards. OCIO
       anticipates completion of this effort by September 30, 2010.
       Finally, as part of the DHS Capital Planning and Investment
       Control process, Life Cycle Cost Estimates data developed for the
       DHS FY 2012 System Engineering Life Cycle planning and the
       OMB E300s will reflect the totality of the HSPD-12 physical and
       logical access interoperability requirements.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin
       to satisfy this recommendation. We consider this recommendation
       resolved; it will remain open until DHS provides documentation to
       support that all planned corrective actions are completed.

       DHS management concurred with recommendation 5. In
       coordination with the DHS Physical Security Managers Working
       Group, the OCSO is consolidating component-provided
       inventories of physical access control systems and the
       identification of facility access points. By March 2010, OCSO
       expects to have a completed physical access control system
       roadmap. The roadmap will identify and prioritize facility access
       points, requirements, and identify the time-phase adaptation of
       legacy physical security environments to PIV-enabled and
       compatible environments. FIPS 201 compliant readers are
       currently being tested at locations around the Nebraska Avenue
       Complex (NAC). In particular, all employees entering the front
       gate of the NAC are required to use the PIV 201 reader. OCIO is
       reviewing all DHS information systems and will develop a


Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 14

                          comprehensive list of candidate systems for mandatory HSPD-12
                          PIV card access by September 30, 2010.

                          OIG Analysis

                          We agree that the steps that DHS is taking, and plans to take, begin
                          to satisfy this recommendation. We consider this recommendation
                          resolved; it will remain open until DHS provides documentation to
                          support that all planned corrective actions are completed.

        System, Account Management, and Physical Security Controls
        Are Not Effective
                 IDMS is DHS’ contractor-developed and managed technical solution for
                 PIV card issuance.9 In September 2007, this solution received GSA
                 approval as a FIPS 201 compliant card issuance system for identity
                 proofing, records management, and credentialing of PIV smartcards. The
                 contractor is responsible for maintaining the security over the system,
                 including the IDMS database and card issuance workstations, training, and
                 support. DHS’ OCIO is currently overseeing the second option year of a
                 five-year contract.

                 Headquarters PACS is an automated legacy system that DHS inherited
                 from the Department of the Navy that manages PIV cardholder records
                 and controls an individual’s physical access to federally controlled
                 Headquarters facilities, such as the NAC, through the use of card readers
                 and applicable software. Card readers — electronic devices that supply
                 power to and communicate with PACS and the PIV card — enable
                 cardholders to be authenticated and communicate with the access control
                 application.

                 We evaluated the physical and logical security controls implemented to
                 determine whether they were effective in protecting the data collected and
                 stored, including personally identifiable information (PII). We performed
                 vulnerability testing of the IDMS database, web application, and server;
                 government furnished equipment (GFE) at the contractor’s Miami, FL,
                 location and Headquarters enrollment centers; card issuance workstations
                 located at Headquarters and CBP; and a kiosk located at the NAC. We
                 also determined whether IDMS and PACS have been certified and
                 accredited. In addition, we ran queries on the IDMS and PACS data to
                 determine whether adequate account management and PIV card access
                 controls have been implemented to restrict and control access to sensitive

9
  As documented in our 2007 report, the Identification and Credential Issuing Station and System (ICISS)
was the predecessor to IDMS. Because ICISS could not be used to produce large quantities of PIV cards in
a production environment, DHS sent out a proposal for a technical solution capable of meeting DHS’ PIV
card production requirements. IDMS was the system procured.
                  Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                                Page 15

and personal data. Further, we tested a sample of PIV cards that had been
revoked to determine whether they still allowed physical access to
Headquarters facilities.

Overall, DHS has implemented adequate physical security controls over
IDMS at the contractor facility in Miami. Physical security evaluations
conducted at the Network Access Point of the Americas building and
contractor headquarters offices in Miami, where the IDMS backup system
is located, uncovered only a few minor issues. These issues were
addressed by contractor’s Facility Security Officer while on-site.
However, our evaluations of physical security conducted at Headquarters
card issuance and enrollment centers identified several security issues with
regards to the protection of PIV card stock, PIV cards, and PII.

IDMS was certified and accredited to operate at the contractor’s Miami
site in June 2008, until becoming operational at the department’s Stennis
Data Center. The ATO for IDMS at the Stennis Data Center was granted
in September 2009. Appendix D shows the overall architecture of IDMS
and accreditation boundaries. Headquarters PACS has not been certified
or accredited.

No high or critical system vulnerabilities were identified during our
vulnerability assessments of the IDMS database, web application, and
server. However, system security controls have not been implemented,
and significant access control and account management security issues
were identified.

        Effective Security and Management Controls Have Not Been
        Implemented

        A federal agency’s success at managing its security requirements is
        contingent upon its processes for auditing governance, compliance,
        and use. Because many different users access an agency’s
        facilities and networks, it is especially challenging for an agency to
        grant the necessary rights and privileges to each user while still
        protecting the confidentiality and privacy of its users and data.
        While privileges granted to PIV cardholders are a local agency
        decision, the PIV card is a core component to setting the “trust
        model” across the federal government.

        DHS’ oversight and implementation of security requirements and
        management controls were not effective. We identified issues
        surrounding system configuration management, separation of
        duties, biometric checking, the certification and accreditation of
        Headquarters PACS, account roles and privileges, and DHS PIV
        card controls.

 Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                              Page 16

       System Security and Management Controls Are Not Enforced

       Our assessment of IDMS identified a number of system security
       and management issues. We determined that system configuration
       management is not adequate and a number of security controls
       have not been implemented to protect personal data collected and
       processed by IDMS. We identified the following issues:

       •	 The PMO is not enforcing a separation of duties when granting
          IDMS administrative account roles. Specifically, the PMO has
          chosen not to separate the roles of the enrollment official and
          PIV issuer via a “two-man rule,” designed to segregate PIV
          card enrollment and issuer duties. When the two-man rule is
          implemented, the system would tag administrative account
          users who have enrolled an applicant and then tried to issue
          that applicant a PIV card by denying such an action.

           DHS chose not to implement a separation of duties through
           policy and system controls. Instead, the department
           implemented a seamless process where an employee visits only
           a single enrollment official. According to DHS officials, the
           department took this approach because it did not have enough
           enrollment staff to separate the roles.

           We identified 38 administrative account users who have both
           enrollment official and PIV issuer roles, meaning that these
           individuals have rights to enroll an applicant and issue a PIV
           card autonomously. Furthermore, 12 administrative account
           users have DHS PIV sponsor, PIV registrar, enrollment
           official, and PIV issuer roles. These roles allow them to create
           a new employee in the system, input card information, and then
           issue a card autonomously, increasing the risk that fraudulent
           cards may be produced and issued to unauthorized individuals.

           DHS’ detailed PIV card and issuance roles are defined in
           Appendix C.

       •	 Local logs on the Security Enhanced Linux (SELinux) server
          and GFE are inadequate. Furthermore, local logs are not
          reviewed on EIWS. Local logs on the EIWS are not protected
          from unauthorized modification, access, or destruction because
          users have local administrative privileges through a shared
          account.

       •	 Password controls have not been implemented on the SELinux
          server that holds the IDMS database. In addition, the

Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 17

           maximum password age was set to 99,999 days, while the
           minimum password age was set to 0 days.

       •   Required antivirus software was not installed on the EIWS.

       The Federal Identity Management Handbook specifies that the
       approval authority should make sure that no single individual or
       role has the capability to issue a card without the participation of
       another individual; at least two different individuals must
       participate in the process at all times. A separation of duties is
       required by the DHS Sensitive Systems Handbook 4300A (DHS
       4300A), for user access control. As documented in the
       Department of Homeland Security (DHS) Headquarters Homeland
       Security Presidential Directive 12 (HSPD-12) Procedures
       Reference Book, the DHS PIV sponsor should not be the PIV
       registrar or PIV issuer for the applicant.

       Under DHS 4300A, configuration management controls must be
       established, implemented, and enforced on all information
       technology (IT) systems and networks. Logs (audit records)
       should contain enough detail to reconstruct an incident; logs are to
       be protected from unauthorized access, modification, and
       destruction. Furthermore, DHS policy requires the establishment
       and enforcement of virus protection control policies, which include
       the configuration and installation of antivirus software on servers.
       According to the DHS Linux Secure Baseline Configuration Guide
       (SBCG), a minimum password age should be set to seven days,
       and maximum password age should be set to 90 days.

       DHS Is Not Performing Required Biometric Checks

       DHS is not performing biometric checks during card registration
       and issuance. FIPS 201-1 requires that a full set of fingerprints be
       collected and compared with law enforcement data for biometric
       verification during the identity proofing and registration process.
       DHS has not been performing biometric checks during enrollment.
       DHS plans to leverage the department’s United States Visitor and
       Immigrant Status Indicator Technology system for biometric
       checks, but did not provide a timeframe for implementing the
       process to perform these checks. Identity proofing cannot be fully
       completed when fingerprint data is not compared with law
       enforcement data.




Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 18

       Headquarters PACS Has Not Been Certified and Accredited

       Headquarters PACS is listed as in the “development” stage of the
       system development life cycle in Trusted Agent FISMA (TAF).
       However, PACS has been operational since November 2003 at the
       NAC, and used throughout the National Capital Region since
       April 2005. Therefore, PACS should be listed as an operational
       system, and certified and accredited to comply with DHS
       requirements implemented under the Federal Information Security
       Management Act (FISMA).

       Headquarters PACS has not been certified and accredited.
       Accreditation is a formal declaration by a Designated Approving
       Authority that an information system is approved to operate in a
       particular security mode using a prescribed set of safeguards at an
       acceptable level of risk. To implement FISMA requirements, DHS
       requires system certification and accreditation prior to a system
       being operational.

       Additionally, operational systems are to be listed in an agency’s
       inventory according to OMB’s FISMA reporting guidance. At
       DHS, systems that are in development in TAF are not counted
       toward system inventory. Because PACS should be listed as an
       operational system, DHS’ system inventory is being underreported
       per OMB's FISMA reporting guidance.

       Account and PIV Card Management Controls Have Not Been
       Defined

       IDMS is composed of applications used to manage the identity
       verification, validation, and issuance processes to produce the
       department’s PIV cards. The IDMS database contains records of
       all smartcards issued to employees and contractors, as well as their
       status. Much of this same sensitive information is contained in
       Headquarters PACS.

       The activation and deactivation of DHS PIV cards in PACS is a
       manual process. Manual procedures are required because there is
       currently no electronic interface between the two databases. Once
       a card is issued via IDMS, cards must be activated in PACS to
       allow DHS Headquarters employees and contractors physical
       access to federally controlled facilities. Cards revoked in IDMS
       must be deactivated in PACS. The card issuance process is shown
       in Appendix E.



Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 19

       We performed detailed queries of IDMS to determine whether the
       administrative account access privileges to system data were
       properly controlled. Also, because the activation and deactivation
       of DHS PIV cards in PACS is a manual process, we compared card
       data in IDMS with Headquarters PACS data to determine whether
       the card status was updated properly in both systems. The results
       of our analysis showed:

       •	 There are many unused and unaccounted for test accounts and
          cards currently active in IDMS. We also identified three user
          account roles — Applicant, Adjudicator, and Activator — that
          were assigned to 121 user accounts, but can no longer be used
          or granted to system users. Unused account roles should be
          deleted to prevent accidental or lingering access rights.
          According to DHS 4300A, unused user identifications should
          be disabled after 45 days of inactivity.

       •	 There may be an excessive number of individuals with account
          access to the IDMS database and system audit logs. Our
          analysis identified 11 “su,” or “super user,” accounts, which
          grant full access to the IDMS database, and 18 Information
          System Security Officer (ISSO) accounts in IDMS, which
          allow the user to view and monitor system logs. The principle
          of least privilege must be implemented under DHS policy, and
          access to system logs should be restricted.

           According to DHS 4300A, the principle of least privilege must
           be applied to protect sensitive information and limit the
           damage that can result from accident, error, or unauthorized
           use. The principle of least privilege requires that users be
           granted the most restrictive set of privileges or lowest
           clearance needed to perform their authorized tasks. Users
           should be able to access only the system resources needed to
           fulfill their job responsibilities. The application of the least
           privilege principle ensures that access to sensitive information
           is granted only to those users with a valid need to know. Audit
           records and audit logs are to be protected from unauthorized
           modification, access, or destruction.

       •	 Though the IDMS web application/database is compliant with
          DHS 4300A, we identified three web application accounts that
          were not assigned to specific individuals. Two were system
          accounts, used to initially set up the system and create
          administrative accounts; both of these accounts can no longer
          be used to access any information or establish new accounts.
          The third was a temporary test account that was never deleted.

Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 20

           Accounts that are not in use or have never been used should be
           deleted from the IDMS database.

       •	 All IDMS EIWS users share one local administrator account.
          The shared account allows users more control of the system
          and limits the need for administrative personnel site visits to fix
          common issues, such as user account lockout. However, under
          DHS 4300A, shared accounts (i.e., such as group
          identifications and passwords) should be limited to operational
          necessity and must be approved by the appropriate Designated
          Approval Authority.

       •	 The manual card deactivation process in use at DHS has led to
          inconsistencies between the IDMS and Headquarters PACS
          databases. Forty of the 1,539 deactivated cards, or 2.6%, were
          deactivated in IDMS but incorrectly left active in PACS.
          When physical access rights are still activated on a card, an
          individual may gain unauthorized access to DHS Headquarters
          facilities and areas.

       •	 The contractor is not properly obtaining DHS permission to
          create or alter IDMS accounts. Although account management
          procedures have not been clearly defined, according to the
          IDMS System Security Plan, the contractor is to request
          permission to create or alter an account by sending an e-mail to
          either the HSPD-12 Program Manager or IT Lead. Once
          permission is granted, via another e-mail, contractor personnel
          can create or alter an account. Based on discussions with DHS
          and contractor personnel, permissions to create or alter IDMS
          accounts are usually requested in person or by phone. E-mails
          are not being sent to properly request permission as specified in
          the IDMS System Security Plan.

       The need for formal procedures for properly creating, altering, and
       deleting accounts, and the informal creation of test records and
       accounts by contractor and DHS personnel, has led to a number of
       unused and unaccounted for card records in IDMS. The IDMS
       System Security Plan provides informal procedures for PIV cards
       and system access controls, but these procedures are not being
       followed by the contractor or enrollment officials, nor are they
       being enforced by the PMO. Because there is no electronic
       interface between IDMS and Headquarters PACS, the manual
       process used to update cards access privileges, activation, and
       deactivation, has led to inconsistencies between the two databases.



Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 21

       Authorized Signatory Agents Have Not Been Identified

       The Office of Security’s Headquarters Access Control Office
       (ACO) does not verify that an authorized signatory agent, or a
       person with the authority to grant an applicant’s request for a DHS
       PIV card, signed an applicant’s Access Control Card Request Form
       (DHS 11000-14). As long as Form 11000-14 is signed by a
       Special Security Officer (SSO), the ACO does not confirm whether
       the person that signed the applicant’s form is authorized to approve
       an applicant’s request.

       The Headquarters ACO requires that each directorate submit a
       Signatory Authority Form every six months with the names of
       individuals authorized to sign off on the clearance portion of the
       Access Control Card Request Form. The ACO, however, has not
       developed a list of authorized signatory agents that are allowed to
       approve an applicant’s DHS 11000-14 form or instituted
       verification procedures to ensure that forms are signed by
       authorized individuals.

       Based on the Office of Security’s Standard Operating Procedure,
       SSOs must sign all DHS 11000-14 forms for processing.
       However, according to the Headquarters ACO Branch Chief, SSOs
       only need to sign 11000-14 forms only for employees requiring a
       Top Secret/Sensitive Compartmented Information (TS/SCI)
       clearance. The SSO’s signature is not necessary for applicants
       with other security clearance levels. It is unclear when an SSO is
       required to sign an applicant’s DHS 11000-14 form.

       Without a list of authorized signatory agents or clear standard
       operating procedures, there is an increased risk that unauthorized
       individuals may be approving applicants’ forms and clearance
       information. Thereby, PIV issuers may be granting physical
       access to federally controlled facilities and areas containing
       TS/SCI and other classified information to individuals that may not
       need access.

       Revoked PIV Cards Are Not Properly Tracked or Deactivated

       ACO specialists at Headquarters enrollment centers are not
       properly tracking revoked or surrendered DHS PIV cards to ensure
       that the cards are promptly returned to the NAC ACO for physical
       destruction. According to the Department of Homeland Security
       (DHS) Headquarters Homeland Security Presidential Directive 12
       (HSPD-12) Procedures Reference Book, a DHS PIV cardholder's
       supervisor is to notify the ACO when the cardholder no longer

Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 22

       requires access to DHS facilities. Once the card has been received,
       the Headquarters ACO should promptly destroy the PIV card by
       shredding it and create a destruction report for the card.

       The Headquarters ACO maintains a log of destroyed PIV cards.
       The destruction log includes the badge number, reason for
       destroying the card, date destroyed, the name of the individual who
       destroyed the card, and the name of a witness. However, the
       Headquarters ACO Branch Chief has not updated the destruction
       log on a regular basis. For example, when we requested the most
       recent destruction log on July 23, 2009, the ACO Branch Chief
       provided us with one dated March 23, 2009, as the most recent.

       Also, ACO specialists are not deactivating DHS PIV cards in
       IDMS and Headquarters PACS in a timely manner. In testing a
       sample of 10 PIV cards having a status of “revoked” in IDMS, but
       not yet destroyed, 1 of the 10 revoked PIV cards still allowed
       physical access to Headquarters’ 1120 Vermont Avenue facility.
       This card was still “active” in PACS. Additionally, though the
       cards obtained had a “revoked” status in IDMS, 4 of the 10 cards
       still have active certifications in IDMS.

       We discussed our concerns with the Headquarters ACO Branch
       Chief. The Branch Chief has since taken steps to implement a new
       process at the 7th & D and NAC ACOs to ensure that all
       certifications are deactivated in IDMS, and the Headquarters
       PACS status is promptly deactivated. However, even with the new
       process in place, the security of DHS facilities, systems, and
       sensitive data may be compromised until there is an electronic
       interface between IDMS and PACS. This electronic interface
       would link IDMS and PACS so that any changes in one database
       would be reflected in the other in real-time, thereby reducing the
       risks associated with the current manual deactivation process.

       Physical Security at Headquarters Needs Improvement

       Our physical security evaluations conducted at two Headquarters
       ACOs exposed several issues with regard to the security of
       processing PIV cards and the protection of PII. At one ACO, our
       review uncovered that 11000-14 Identification Access Control
       Card Request forms that contain employee/contractor PII are
       stored in unlocked filing cabinets.

       At the other ACO, blank PIV cards, 11000-14 forms, and cards
       that need to be destroyed are not being secured. Blank PIV cards
       and 11000-14 forms are stored in unlocked desk drawers at EIWS.

Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 23

       At the end of the workday, the enrollment officials consolidate all
       paper 11000-14 forms into a single folder and place the folder on
       top of a filing cabinet in the ACO; the folder containing the forms
       is not secured in any way. When a PIV card is surrendered, an
       enrollment official punches the PIV card chip out and stores the
       card in an EIWS desk drawer. Punching the PIV card chip out
       does not disable the magnetic strip, which stores a cardholder’s
       physical access rights to Headquarters facilities.

       According to the Department of Homeland Security (DHS)
       Headquarters Homeland Security Presidential Directive 12
       (HSPD-12) Procedures Reference Book, the designated card
       custodian is responsible for storing card stock in a secure facility.
       The designated card custodian is also responsible for storing used,
       revoked, and defective PIV cards in a secure location until
       destruction. According to the Federal Identity Management
       Handbook, agencies should establish a business process and secure
       delivery method for all PIV-related documents. Regardless of the
       business process implemented by the agency, the process should be
       auditable and secure and should protect the applicant’s PII.

Recommendations
       We recommend that DHS’ Chief Security Officer, in conjunction
       with the Chief Information Officer:

       Recommendation #6: Address the configuration, card
       management, and user account issues identified according to
       HSPD-12 and DHS policy.

       Recommendation #7: Develop a configuration management
       policy conducive to the department-wide deployment of EIWS at
       enrollment centers.

       Recommendation #8: Develop formal procedures for creating
       IDMS accounts and roles, and the privileges associated with those
       accounts and roles.

       Recommendation #9: Define account and PIV card management
       controls, procedures, and a process for ensuring that controls have
       been implemented.

       Recommendation #10: Reconcile IDMS records with
       Headquarters PACS records to identify inconsistencies and ensure
       the accuracy of both databases.


Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 24

       Recommendation #11: Ensure that PACS is certified and
       accredited according to DHS policy under FISMA.

       Recommendation #12: Define uniform, auditable policies and
       procedures that will clearly define when and how access controls
       should be properly granted and disabled, including card revocation,
       suspension, and destruction. These procedures should be
       established for all enrollment centers and implemented in all ACOs.

       Recommendation #13: Establish an authorized signatory agent
       list and develop a procedure to verify signatures on DHS 11000-14
       forms to ensure that only authorized individuals are signing DHS
       11000-14 forms.

       Recommendation #14: Develop detailed, uniform procedures that
       require enrollment center personnel to secure blank PIV cards,
       11000-14 forms, and surrendered PIV cards containing PII while
       stored at the ACOs.

       Recommendation #15: Implement procedures for evaluating
       physical security at ACOs and enrollment centers to ensure that PII
       is properly protected.

Management Comments and OIG Analysis
       DHS management concurred with recommendation 6. The DHS
       HSPD-12 Procedures Reference Book will be revised by
       January 30, 2010, to incorporate new and additional policies,
       processes, and procedures, and system functionality, including
       configuration, card management, and user account issues. The
       revised reference book will also reflect system modifications and
       enhancements that have been made as a result of receiving ATO on
       September 11, 2009. As appropriate, this information will be
       incorporated into enrollment center training that will be provided
       to DHS PIV enrollment officials and ACO employees. Training
       requirements will also be included in solicitations that support
       nationwide deployment requirements.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin
       to satisfy this recommendation. We consider this recommendation
       resolved; it will remain open until DHS provides documentation to
       support that all planned corrective actions are completed.



Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 25

       DHS management concurred with recommendation 7. By
       January 30, 2010, the DHS HSPD-12 Procedures Reference Book
       will be revised to address the specific configuration management
       issues associated with department-wide deployment of the EIWS.
       Additionally, the reference book will updated to reflect feedback
       from the system’s recent C&A process. As appropriate, this
       information will be incorporated into enrollment center training.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin
       to satisfy this recommendation. We consider this recommendation
       resolved; it will remain open until DHS provides documentation to
       support that all planned corrective actions are completed.

       DHS management concurred with recommendation 8. By
       January 30, 2010, OCSO will update Section 2.0, Roles and
       Responsibilities of the DHS HSPD-12 Procedures Reference Book,
       to address the procedures for creating IDMS accounts and roles,
       and the privileges associated with those accounts and roles. As
       appropriate, this information will be incorporated into enrollment
       center training and audited by the PMO staff to ensure compliance.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin
       to satisfy this recommendation. We consider this recommendation
       resolved; it will remain open until DHS provides documentation to
       support that all planned corrective actions are completed.

       DHS management concurred with recommendation 9. By
       January 30, 2010, OCSO will update Section 3.4, DHS PIV Card
       Issuance, Re-Issuance, and Renewal of the DHS HSPD-12
       Procedures Reference Book, to define account and PIV card
       management controls, procedures, and a process for ensuring that
       controls have been implemented. As appropriate, this information
       will be incorporated into enrollment center training and audited to
       help ensure compliance.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin
       to satisfy this recommendation. We consider this recommendation
       resolved; it will remain open until DHS provides documentation to
       support that all planned corrective actions are completed.


Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 26

       DHS management concurred with recommendation 10. OCSO is
       establishing a methodology for reconciling daily Headquarters PIV
       card revocation reports from IDMS against activity in
       Headquarters PACS. The DHS Headquarters PACS interface is
       the first of its kind in the department and is therefore being used to
       define component requirements and technical integration
       requirements. Moreover, the Physical Security Manager’s
       Working Group for PIV integration is documenting the common
       business processes and requirements that will form the basis for
       common department-wide standards and a sustainable
       enterprise-based technical solution.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin
       to satisfy this recommendation. We consider this recommendation
       resolved; it will remain open until DHS provides documentation to
       support that all planned corrective actions are completed.

       DHS management concurred with recommendation 11. The PACS
       C&A process is underway and is scheduled for completion by the
       second quarter of FY 2010.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin
       to satisfy this recommendation. We consider this recommendation
       resolved; it will remain open until DHS provides documentation to
       support that all planned corrective actions are completed.

       DHS management concurred with recommendation 12. By
       January 30, 2010, OCSO will update Section 3.0 Procedures of the
       DHS HSPD-12 Procedures Reference Book, to define uniform,
       auditable policies and procedures for granting, disabling, card
       revocation, suspension, and destruction. Additionally, the Physical
       Security Manager’s Working Group for PIV integration is
       documenting the common business processes and requirements
       that will further define standard policies and procedures for
       enrollments centers and ACOs.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin
       to satisfy this recommendation. We consider this recommendation
       resolved; it will remain open until DHS provides documentation to
       support that all planned corrective actions are completed.

Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 27

       DHS management concurred with recommendation 13. The DHS
       OCSO ACO established a signatory agent list procedure in
       June 2005. In mid-2008, DHS Headquarters began exchanging
       legacy access control cards for HSPD-12 compliant PIV cards. To
       facilitate the issuance of the PIV card, the use of the signatory
       agent list was temporarily suspended for only those personnel who
       presented an unexpired legacy card. However, new employees and
       those that held a legacy access control card that was expired or
       lost, were still required to get an approved signatory authority’s
       signature on the 11000-14. During the legacy card exchange
       period, signatory authority lists were periodically updated. The
       requirement for a properly signed DHS Form 11000-14 was
       reinstituted in October 2009, for all card issuance. OCSO will
       update the ACO’s standard operating procedures and incorporate
       the updates into enrollment center and ACO training. The
       requirement is already included in the DHS HSPD-12 Procedures
       Reference Book, Section 3.3, Adjudication and On-Boarding
       Determination.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin
       to satisfy this recommendation. We consider this recommendation
       resolved; it will remain open until DHS provides documentation to
       support that all planned corrective actions are completed.

       DHS management concurred with recommendation 14. By
       January 30, 2010, Section 3.0 of the DHS HSPD-12 Procedures
       Reference Book will be updated to more fully address the
       identification and protection of PII and to provide procedures for
       securing blank/surrendered PIV cards. OCSO will also reinforce
       current standard operating procedures and ensure enrollment center
       and ACO personnel are appropriately trained. When updating the
       reference book, standard operating procedures, and training, OCSO
       will refer to applicable DHS guidance, OMB Memorandum
       M-07-16, Safeguarding Against and Responding to the Breach of
       Personally Identifiable Information, and the Federal Identity,
       Credential, and Access Management Roadmap and
       Implementation Guidance.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin
       to satisfy this recommendation. We consider this recommendation
       resolved; it will remain open until DHS provides documentation to
       support that all planned corrective actions are completed.

Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 28

       DHS management concurred with recommendation 15. OCSO is
       strengthening existing standard operating procedures and training
       requirements associated with the physical security at ACOs.
       Storage containers, locks, and when applicable, alarms will be
       utilized at ACO locations. Furthermore, the DHS HSPD-12
       Procedures Reference Book will be revised to more fully address
       physical security at the ACOs and the identification and protection
       of PII.

       OIG Analysis

       We agree that the steps that DHS is taking, and plans to take, begin
       to satisfy this recommendation. We consider this recommendation
       resolved; it will remain open until DHS provides documentation to
       support that all planned corrective actions are completed.




Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                             Page 29

Appendix A
Purpose, Scope, and Methodology

            The objective of our audit was to determine whether DHS is meeting
            HSPD-12 implementation requirements and completing actions to address
            our prior audit recommendations. We determined whether DHS (1)
            adequately addressed HSPD-12 requirements in its implementation plan
            and process, (2) has implemented effective physical and system security
            controls to protect the privacy of personal data collected and processed by
            IDMS, and (3) completed system documentation in compliance with
            FISMA requirements.

            Our audit focused on the requirements outlined in HSPD-12, Policy for a
            Common Identification Standard for Federal Employees and Contractors;
            OMB M-05-24, Implementation of Homeland Security Presidential
            Directive (HSPD) 12 – Policy for a Common Identification Standard for
            Federal Employees and Contractors; and FIPS 201-1, Personal Identity
            Verification (PIV) of Federal Employees and Contractors. In addition, we
            reviewed the Federal Identity Management Handbook; Department of
            Homeland Security (DHS) Headquarters Homeland Security Presidential
            Directive 12 (HSPD-12) Procedures Reference Book; National Institute of
            Standards and Technology Special Publication (NIST SP) 800-53,
            Recommended Security Controls for Federal Information Systems; NIST
            SP 800-79-1, Guidelines for the Accreditation of Personal Identity
            Verification Card Issuers; DHS Sensitive Systems Handbook 4300A; DHS
            Windows SBCG; DHS Linux SBGG; and DHS Oracle SBCG.

            We interviewed management personnel in the Office of Security and
            OCIO. In addition, we interviewed the HSPD-12 Program Manager,
            personnel from the Headquarters ACO, and contractor personnel,
            including the system administrators and the Facility Security Officer.
            Further, we interviewed Office of Inspector General security personnel
            and personnel from GSA’s Managed Services Office.

            We evaluated DHS’ HSPD-12 implementation plan, deployment process,
            and compliance with milestone dates. We conducted physical security
            evaluations of the contractor’s facilities in Miami, FL, and the ACOs
            located in the Washington, DC, area. We also tested a sample of revoked
            PIV cards to determine whether they still allowed physical access to
            Headquarters facilities.

            In addition, we performed detailed system security vulnerability
            assessments of the IDMS database, web application, and server; GFE at
            the contractor’s Miami, FL, location and Headquarters enrollment centers;
            card issuance workstations located at Headquarters and CBP; and a kiosk
            located at the NAC. We excluded system security vulnerability testing of
            Headquarters PACS and an evaluation of the Virtual Private Network
            connection at the Stennis Data Center from our audit scope.

             Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                          Page 30

Appendix A
Purpose, Scope, and Methodology

            We verified account management controls and performed analytical
            queries of data contained in IDMS and Headquarters PACS. Furthermore,
            we analyzed certification and accreditation documentation for the IDMS
            and PACS systems. We followed up on prior recommendations made in
            our October 2007 report, Progress Has Been Made But More Work
            Remains in Meeting Homeland Security Presidential Directive 12
            Requirements (OIG-08-01).

            We conducted our fieldwork at DHS’ Headquarters offices in the
            Washington, DC, metropolitan area and at contractor facilities in Miami,
            FL. Fieldwork was completed between June and October 2009 under the
            authority of the Inspector General Act of 1978, as amended, and according
            to generally accepted government auditing standards. Major OIG
            contributors to the audit are identified in Appendix F.

            The principal OIG points of contact for the audit are
            Frank W. Deffer, Assistant Inspector General, IT Audits, at
            (202) 254-4100, and Edward G. Coleman, Director, Information Security
            Audit Division, at (202) 254 5444.




             Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                          Page 31

Appendix B
Management Comments to the Draft Report




             Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                          Page 32

Appendix B
Management Comments to the Draft Report




             Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                          Page 33

Appendix B
Management Comments to the Draft Report




             Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                          Page 34

Appendix B
Management Comments to the Draft Report




             Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                          Page 35

Appendix B
Management Comments to the Draft Report




             Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                          Page 36

Appendix B
Management Comments to the Draft Report




             Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                          Page 37

Appendix B
Management Comments to the Draft Report




             Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                          Page 38

Appendix C
DHS PIV Card and Issuance Roles


                        DHS PIV Card and Issuance Roles

         •	 Applicant – The individual applying for a DHS PIV card. The applicant
            must be a current or prospective federal hire, federal employee, or
            contractor.

         •	 DHS PIV Sponsor – The individual responsible for administering the on-
            boarding for DHS Headquarters’ new employees or contractors and
            initiating the identity vetting process. The sponsor is responsible for
            verifying that an individual should be obtaining a DHS PIV card, select
            the necessary system checks, and mark the sponsorship as approved.
            When new employees applying for a PIV card have not yet been entered
            into the Personnel Security Division’s Integrated Security Management
            System, the sponsor has the ability to create a new record for the employee
            in the system. The sponsor, however, still needs to carry out the other
            responsibilities associated with the role prior to approving sponsorship.

         •	 Authorized Signatory Agent – The individual authorized by a DHS
            directorate to approve the issuance of a DHS PIV card to an applicant.

         •	 PIV Registrar – The Personnel Security Division’s Entry-on-Duty
            Adjudication team lead or the federal designee who makes the final
            determination for the applicant to proceed to DHS PIV card issuance. The
            registrar is responsible for the adjudication of background investigations
            and the Federal Bureau of Investigation check.

         •	 Enrollment Official – The individual who initiates the chain of trust for
            identity proofing and provides trusted services to confirm employer
            sponsorship, bind the applicant to their biometric, and validate the identity
            source documentation. This official is responsible for obtaining an
            applicant’s fingerprints, scanning identity documents, and capturing a
            photo of the applicant during the enrollment process.

         •	 PIV Issuer – An authorized identity card creator that procures
            FIPS-approved blank identity cards, initializes them with the appropriate
            software and data elements for the requested identity verification and
            access control application, personalizes the cards with the identity
            credentials of authorized individuals, and delivers personalized cards to
            these individuals, along with appropriate instructions for protection and
            use. The issuer is responsible for printing, encoding, and activating the
            PIV card.




              Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                           Page 39

Appendix D
Current IDMS Architecture


                            Current IDMS Architecture




             Resource and Security Issues Hinder DHS’ Implementation of HSPD-12

                                          Page 40
Appendix E
DHS PIV Card Issuance Process


                        DHS PIV Card Issuance Process




             Resource and Security Issues Hinder DHS’ Implementation of HSPD-12

                                          Page 41
Appendix F
Major Contributors to this Report


                     Information Security Audit Division

                     Edward Coleman, Director
                     Barbara Bartuska, IT Audit Manager
                     Mike Horton, IT Officer
                     Charles Twitty, IT Auditor/Team Lead
                     Bridget Glazier, IT Auditor
                     Amanda Strickler, IT Specialist
                     Tom Rohrback, IT Specialist
                     David Bunning, IT Specialist
                     Joseph Landas, Program and Management Clerk
                     Lauren Badley, Program and Management Clerk

                     Craig Adelman, Referencer




              Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                           Page 42

Appendix G
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Chief Security Officer
                      Deputy Chief Security Officer
                      Chief Information Officer
                      Chief Information Security Officer
                      Director, Compliance and Oversight Program
                      Chief, Identity Management Division
                      Chief Technology Officer, OCIO
                      Executive Director, IT Services Office (ITSO)
                      Deputy Director, Headquarters Services Division
                      Information System Security Manger, ITSO, Headquarters
                      Services Division
                      Information System Security Officer, OCIO
                      Audit Liaison, OCIO
                      Director, OIG Information Security Audit Division
                      IT Audit Manager, OIG Information Security Audit Division

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




              Resource and Security Issues Hinder DHS’ Implementation of HSPD-12 


                                           Page 43

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
